<html>
<title> - NOMINATIONS OF MICHAEL P. JACKSON, TO BE DEPUTY SECRETARY OF THE DEPARTMENT OF TRANSPORTATION, AND BRENDA L. BECKER, TO BE ASSISTANT SECRETARY OF THE DEPARTMENT OF COMMERCE FOR LEGISLATIVE AND INTERGOVERNMENTAL AFFAIRS</title>
<body><pre>[Senate Hearing 107-936]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-936

 
   NOMINATIONS OF MICHAEL P. JACKSON, TO BE DEPUTY SECRETARY OF THE 
              DEPARTMENT OF TRANSPORTATION, AND BRENDA L. 
  BECKER, TO BE ASSISTANT SECRETARY OF THE DEPARTMENT OF COMMERCE FOR 
                   LEGISLATIVE AND INTERGOVERNMENTAL 
                                AFFAIRS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 25, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

87-005 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  MAX CLELAND, Georgia
GEORGE ALLEN, Virginia               BARBARA BOXER, California
                                     JOHN EDWARDS, North Carolina
                                     JEAN CARNAHAN, Missouri
                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 25, 2001...................................     1
Statement of Senator Burns.......................................     4
Statement of Senator Cleland.....................................    26
Statement of Senator Dorgan......................................    25
Statement of Senator Hollings....................................     2
Statement of Senator Hutchison...................................    23
Statement of Senator Lott........................................     3
Statement of Senator McCain......................................     1
Statement of Senator Smith.......................................    24
Statement of Senator Stevens.....................................     3

                               Witnesses

Becker, Brenda L., Assistant Secretary-Designate for Legislative 
  and Intergovernmental Affairs, U.S. Department of Commerce.....    14
    Prepared statement...........................................    14
    Biographical Information.....................................    16
Jackson, Michael P., Nominee, Senior Advisor to the Secretary, 
  U.S. Department of Transportation..............................     4
    Prepared statement...........................................     4
    Biographical Information.....................................     5

   NOMINATIONS OF MICHAEL P. JACKSON, TO BE DEPUTY SECRETARY OF THE 
  DEPARTMENT OF TRANSPORTATION, AND BRENDA L. BECKER, TO BE ASSISTANT 
                    SECRETARY OF THE DEPARTMENT OF 
                       COMMERCE FOR LEGISLATIVE 
                     AND INTERGOVERNMENTAL AFFAIRS

                              ----------                              


                       WEDNESDAY, APRIL 25, 2001

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:26 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. I want to welcome two of the Administration's 
nominees today. First, we have Michael Jackson, who has been 
nominated to serve as the Deputy Secretary of Transportation. 
We will also hear from Brenda Becker, who has been nominated to 
be the Commerce Department Assistant Secretary for Legislative 
and Intergovernmental Affairs. Both Mr. Jackson and Ms. Becker 
have distinguished careers, and I congratulate them on their 
appointments to these prestigious posts.
    Prior to this appointment, Mr. Jackson was the Vice 
President and General Manager for Business Development at 
Lockheed Martin IMS, Transportation Systems and Services. He 
was previously Senior Vice President and Counselor to the 
President at the American Trucking association.
    Mr. Jackson has devoted many years to public service. Mr. 
Jackson served in several positions within the Executive 
Branch, serving as Chief of Staff at the Department of 
Transportation from 1992 to 1993, and as Special Assistant to 
the President and Executive Secretary for Cabinet Liaison 
during the presidency of George--President Bush. Mr. Jackson's 
experience will serve him well at the Department of 
Transportation, with the many management challenges the 
Department faces.
    Ms. Becker's career in the private sector is similarly 
distinguished. Most recently, she was the Vice President of 
Congressional Communications for the Blue Cross Blue Shield 
Associates. Ms. Becker has held a variety of positions with 
Blue Cross Blue Shield over several years.
    As Assistant Secretary for Legislative and 
Intergovernmental Affairs, Ms. Becker will be responsible for 
advising Secretary Evans on legislative issues and 
congressional relations. She has perhaps the hardest job of 
all, having to be responsive to 535 Members of Congress. As 
Assistant Secretary, Ms. Becker would also be responsible for 
coordinating the Department's efforts with state, county and 
municipal governments and their associations.
    Again, I welcome you both to the Committee, and appreciate 
your willingness to serve. If you have any family members here, 
please feel free to introduce them before you begin your 
remarks. We will begin with you, Ms. Becker. Would you like to 
introduce any members of your family?
    Ms. Becker. I really wanted to thank my family for being 
here and being so supportive. I couldn't be doing this job or 
taking it on without my husband Jeff who has been really 
supportive. He is behind me with my daughter Megan, who's nine 
and Max who's six and also another really special person in my 
life is my father, Mel Larsen, and he came in from Michigan to 
this hearing today and he has really been the inspiration and 
role model for me to pursue public service and I really 
appreciate them being here today.
    The Chairman. Well we welcome your family. I know this is a 
very special day and, of course, Michigan is one of my favorite 
states.
    [Laughter.]
    The Chairman. So I want to thank you and Megan and Max, we 
are proud that you are here, to remember this day, this very 
proud day for your mother.
    Mr. Jackson.
    Mr. Jackson. Thank you, Mr. Chairman. I have two special 
people to introduce today. With your permission, my wife, Caron 
Jackson and my mother who is visiting from Houston, Texas 
today, Ann Jackson, and so I am grateful for their support and 
pleased to be able to have them with me today.
    The Chairman. Welcome to the Jackson family. Caron, 
congratulations. It's a proud day, as you can see by the 
overwhelming attendance. This will be a very tough grilling 
your husband will receive today.
    [Laughter.]
    The Chairman. So welcome, Senator Hollings. Do you have any 
opening----
    Senator Hollings. You've reminded me that South Carolina is 
not one of your favorite states.
    [Laughter.]
    The Chairman. It's about 45 percent my favorite state.
    [Laughter.]
    Senator Hollings. For which I apologize again.
    [Laughter.]

              STATEMENT OF HON. ERNEST HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Mr. Jackson, I have had the pleasure of 
meeting with you. Let me reemphasize the importance of the 
Airline Competition Act. I want the Department of Commerce's 
comments on it, and I want you to make sure that you look into 
the Seaport Security Act also that Senator Graham of Florida 
and myself have sponsored. Other than that, I will withhold 
questions for now.
    The Chairman. Thank you Senator Hollings.
    Senator Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Mr. Chairman, I am delighted that two 
people we know so well will be in these two departments, ones 
that we can work with very closely. I am pleased to be here. 
Thank you very much.
    The Chairman. Thank you. I would like to recognize Majority 
Leader, Senator Lott.

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Thank you, Mr. Chairman and members of the 
Committee. It is my pleasure to serve on this Committee and to 
be here in support of these nominees today. Of course, Michael 
Jackson at Transportation is going to be in a very critical 
position. A lot of the issues that he'll be dealing with 
obviously come before this Committee and we will have some 
views on a number of things including railroads, Title 11 
shipbuilding loan guarantees, and other issues. But I think Mr. 
Jackson is an excellent choice, I wish him the very best and I 
certainly will support his nomination.
    I also wanted to be here on behalf of Brenda Becker. It is 
great to see the families of both of these nominees here today. 
Megan and Max, I hope will be understanding when mom is 
sometimes a little late in coming home.
    But we have all known Brenda Becker for at least 10 years 
and can vouch for her diligence. She has proven time and time 
again she's very capable and persuasive, even when you disagree 
with her. I have found her to be reasonable and persistent, to 
say the least. I have quite often referred to her as the flower 
of the insurance industry. I am not quite sure what that means, 
but it is a very good title and I hope it will transfer with 
her and she will become known as the flower of the Commerce 
Department. That department certainly needs a few more flowers 
over there to deal with some of their issues.
    I am always glad to meet with the Secretary and I enjoy 
corresponding with him. I might say, Senator Hollings, but now, 
when he writes back, he draws an image of a little fish at the 
bottom of his letters, so he understands that fisheries are 
under Commerce. So we're getting him acclimated a little bit.
    And I know that Brenda Becker will do an excellent job 
working with him on his behalf and on behalf of the Department 
and working with the Congress. The kind of knowledge she has of 
the Executive Branch, the Legislative Branch is truly unique. 
She is just tremendously qualified and I appreciate the 
opportunity to appear here on her behalf and I certainly will 
support her nomination.
    The Chairman. Thank you, Senator Lott. Thank you for being 
here in behalf of these nominees and we know you have a very 
heavy schedule on the floor and we thank you for taking the 
time. We know you may have to leave.
    Senator Burns.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Thank you very much, Mr. Chairman. It gives 
me a great deal of pleasure to introduce Brenda Becker to this 
Committee to consider her nomination to be Assistant Secretary 
for Intergovernmental Affairs and Department of Commerce.
    You know, we have got a long way to go in order to 
establish the policy shop at the Department of Commerce with 
regard to telecommunications and all three of the Senators that 
are here today understand that. Brenda brings a tremendous 
amount of talent to the Department of Commerce because of her 
ability to communicate with just about every Member of 
Congress. Because we have known her for a long time, we have 
known her to be very, very up-front and very honest with us, in 
fact sometimes brutally honest with us and she always does what 
she says, and in this time when we're trying to form new 
telecommunications policies to deal with those issues and not 
only for our country but in the hemisphere, she brings a great 
deal of talent to it, so I heartily recommend we confirm her 
and introduce her to this Committee today and our friendship 
and I think that the Congress is very, very, lucky to have such 
a person who knows how to communicate and to articulate what 
the President wants done in the areas many areas that this 
Committee covers. And so I welcome her appointment and heartily 
recommend her confirmation.
    The Chairman. Thank you very much Senator Burns, thank you 
and Senator Lott for being here. Mr. Jackson we will begin with 
you for your opening statement.

           STATEMENT OF MICHAEL P. JACKSON, NOMINEE, 
      SENIOR ADVISOR TO THE SECRETARY, U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Jackson. I am grateful for your kindness, Mr. Chairman, 
in having me here today and it is an honor and daunting to be 
asked to be part of the President Bush and Secretary Mineta's 
team and to be here before you today.
    America's transportation network is an indispensable 
foundation for the economy and there is much to be done to 
preserve it and to improve it and I would look forward if 
confirmed by the Senate to working with you.
    In deference to the time of the Committee today, I would 
ask that my prepared remarks be included in the record and I am 
happy to answer any questions, Mr. Chairman.
    `The prepared statement and biographical information of 
Michael P. Jackson follow:]
     Prepared Statement of Michael P. Jackson, Deputy Secretary of 
                        Transportation-Designate
    Thank you, Mr. Chairman and Members of the Committee. It is an 
honor both to have been nominated by President Bush and to appear 
before you this morning. If confirmed, I would very much look forward 
to working closely with the Members of this Committee.
    America's transportation network provides the indispensable 
foundation upon which our economy rests. There is, however, much work 
to be done to preserve and improve transportation safety and 
efficiency.
    The Department's top priority has been, and will remain this: 
promoting transportation safety to reduce injuries and fatalities. 
Whether it is a Coast Guard sailor who selflessly leaps into the water 
to save a life, an air traffic controller calmly steering a flight 
around unexpected bad weather, or a NHTSA safety engineer intently 
studying crash data--safety is the touchstone that animates the work of 
virtually every single professional at the Department. I, too, will 
make it my first and foremost objective to work with Secretary Mineta 
and my colleagues to improve transportation safety in all modes, every 
day.
    This, of course, is only the starting point. The United States 
faces an urgent imperative to ease congestion and to improve 
transportation efficiency. In surface, aviation and marine 
transportation, we face a serious capacity shortfall. Finding ways to 
reduce transportation congestion and gridlock is an essential quality 
of life issue in cities and towns nationwide. This also would have my 
intense focus.
    The spirit of innovation is America's genius, and the Department--
in partnership with the private sector--must unleash that genius to 
accelerate the adoption of technologies that increase mobility, without 
compromising our environment. Transportation is increasingly global, 
interconnected and consolidated. If confirmed, I would aggressively 
support technological and managerial innovation to squeeze additional 
value from our precious transportation dollars. I would support 
intermodal freight and passenger transportation systems that preserve 
healthy competition.
    The opportunity to serve as Deputy Secretary would mark a second 
tour of duty for me at the Department of Transportation. To support 
President Bush and Secretary Mineta, to join transportation colleagues 
in meeting the Department's vital mission, these are tasks to which I 
will gratefully dedicate my energy, experience, commitment and passion.
    Finally, let me pledge to the members of this Committee that I will 
always be candid with you and receptive to your input. I am eager to 
work together with you to improve transportation in America. This 
concludes my testimony, and I would be pleased to answer any questions 
you may have for me this morning.
    Thank you.
                                 ______
                                 
                      a. biographical information
    1. Name: Michael Peter Jackson.
    2. Position to which nominated: Deputy Secretary, U.S. Department 
of Transportation.
    3. Date of nomination: March 8, 2001.
    4. Address: Information not released to the public.
    5. Date and place of birth: April 28, 1954 in Houston, Texas 
(Harris County).
    6. Marital status: Married. Wife is Caron Suzanne Jackson (maiden 
name: Caron Suzanne Ross)
    7. Names and ages of children: Catherine Anne Jackson (born: 4-13-
95).
    8. Education: Georgetown University (Washington, DC), Ph.D. in 
Government, awarded December 1985. Attended 9/77 to 8/85; University of 
Houston (Houston, Texas), B.A. in Political Science, awarded August 
1977, attended 9/72 to 8/77; Strake Jesuit (Houston, Texas), high 
school graduation in May 1972, attended 9/68 to 5/72.
    9. Employment record: U.S. Department of Transportation, (2/21/01 
to present): senior advisor to the Secretary of Transportation; 
Lockheed Martin IMS, Transportation Systems and Services, Washington, 
DC (8/97 to 2/01): Vice President and General Manager, Business 
Development (8/00 to 2/01), Chief Operating Officer (5/98 to 7/00), 
Vice President, Marketing and Business Development (8/97 to 4/98); 
American Trucking Associations, Alexandria, VA (12/93 to 7/97): Senior 
Vice President and Counselor to the President, Vice President, ATA 
Foundation, Inc.; American Trucking Associations, Alexandria, VA (2/93 
to 11/93): Management consultant. Note: was hired to support the 
chairman of the National Commission on Intermodal Transportation to 
formulate plans for the. Commission's agenda and assist with staff 
recruitment. ATA's CEO was one of the Commission members; U.S. 
Department of Transportation, Washington, DC (2/92 to 1/93): Chief of 
Staff to the Secretary of Transportation; U.S. Department of Education, 
Office of the Secretary of Education, Washington, DC (6/91 to 2/92): 
Director, Office of America 2000; The White House, Washington, DC (1/89 
to 5/91): Special Assistant to the President and Executive Secretary 
for Cabinet Liaison (7/90 to 6/91), Executive Secretary for Cabinet 
Liaison (1/90 to 6/90), Associate Director of Cabinet Affairs and 
Director of Cabinet Liaison (1/89 to 12/89); The Madison Center, 
Washington DC (9/88 to 1/89): Associate Director; U.S. Department of 
Education, Office of the Secretary of Education (10/86 to 9/88): Deputy 
Chief of Staff, Special Assistant for Public Affairs; White House 
Conference on Small Business, Washington, DC (7/86 to 10/86): Assistant 
to the Conference Director; University of Georgia, Department, of 
Political Science, Athens, GA (9/85 to 6/86): Visiting Assistant 
Professor; American Enterprise Institute, Washington, DC (6/84 to 8/
85): Research Assistant to Michael Novak; Georgetown University, 
Department of Government, Washington, DC (8/77 to 6/84). Note: as a 
doctoral student, I held various teaching and research fellowships at 
Georgetown. During this period, was also a visiting instructor of 
political science at the University of Houston, Department of Political 
Science (Summer, 1979).
    10. Government experience. None.
    11. Business relationships: No such positions currently held.
    12. Memberships: Member, Bush Presidential Library Advisory 
Council, College Station, TX. Note: The Advisory Council was formed to 
provide informal advice to former President George H. W. Bush regarding 
the program and operations of the Presidential library foundation and 
center. Formed in 1996 and consisting of approximately 20 persons, the 
Council typically has met twice annually. None of its members has any 
fiduciary responsibilities for the Presidential Library, the 
Presidential Library Foundation or the George Bush School of Government 
by virtue of membership on the Council.
    13. Political affiliations and activities: (a) None. (b) None. (c) 
08/00--Victory 2000, Republican Parry of Florida, $1,500; 10/99--
Lockheed Martin IMS Good Government Committee (PAC), $750; 05/99--Gil 
Garcetti, Los Angeles, CA, $1,000; 10/98--Alabama Victory 1998, 
Republican Party of Alabama, $500; 09/98--Anthony Williams for Mayor, 
Washington, DC, $800; 09/97--Sandra Bushue for Delegate, Arlington, VA, 
$250; 09/95--Bob Dole for President, Washington, DC, $250; 03/94--John 
Schall for Congress, $500; 03/93--Rob J. Portman for Congress, 
Cincinnati, OH, $200; 10/92--Victory 1992, Republican National 
Committee; $500; 09/91 to 09/92--Friends of Barry Williamson, Austin, 
TX, $300; 1997--ATA Truck PAC, American Trucking Associations, $640; 
1996--ATA Truck PAC, American Trucking Associations, $1,240; 1995--ATA 
Truck PAC, American Trucking Associations, $1,040; 1994--ATA Truck PAC, 
American Trucking Associations, $1,040; 1993--ATA Truck PAC, American 
Trucking Associations, $80.
    14. Honors and awards: University of Georgia, Political Science 
Department, ``Teacher of the Year,'' 1985-1986; As a graduate student 
at Georgetown University, I received several tuition scholarships and 
teaching assistantship grants, including a Georgetown University 
Fellowship and an H.B. Earhart Fellowship. During that time, I was a 
member of Pi Sigma Alpha, a political science honorary society, and 
served a 1-year term as its president.
    15. Published writings: ``Intermodalism: Hauling in a Deal,'' 
Journal of Commerce 10/4/96 (in support of the Intermodal Safe 
Container Transportation Amendments Act of 1996); Michael Novak and 
Michael P. Jackson, eds., Latin America: Dependency or Interdependence. 
Washington, DC: American Enterprise Institute, 1985; Michael P. 
Jackson, ``Leo Strauss's Teaching: A Study of Thoughts on 
Machiavelli.'' Ph.D. dissertation, Georgetown University, 1985; Prior 
to 1986, I published one academic journal article related to my 
doctoral dissertation (in Vera Lex) and reviews of several academic 
books--copies of which I have been unable to locate.
    16. Speeches: None available. In the last 5 years, I have 
participated on panels or given speeches to meetings of ITS America, 
the Transportation Research Board, metropolitan planning organizations, 
and various freight transportation and toll industry professional 
associations and trade groups. Such presentations have focussed on a 
range of topics, from transportation technology trends to freight 
policy issues. It has been my practice not to speak from a formal, 
typed text.
    17. Selection: (a) Do you know why you were chosen for this 
nomination by the President? I assume that my nomination is chiefly 
related to: (1) my previous government service; (2) private sector jobs 
in which I have worked closely with a broad range of passenger and 
freight transportation stakeholders; and (3) management experience. In 
particular, as chief of staff to the Secretary of Transportation, I was 
exposed to the full range of issues then facing the Department. I have 
a deep respect for the mission of the Department of Transportation, and 
an abiding commitment to public service. (b) What do you believe in 
your background or employment experience affirmatively qualifies you 
for this particular appointment? I have been exposed to a broad range 
of passenger and freight transportation issues, drawing upon service at 
the Department of Transportation, as a university professor, and in the 
private sector. Immediately prior to my nomination, I had worked 
closely with State and local transportation officials to provide state-
of-the-art intelligent transportation systems. Serving well over half 
of the states, these systems included electronic toll collection 
operations, Internet-based regulatory compliance services for motor 
carriers, and financial reconciliation networks.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Yes. I recently resigned my position with 
Lockheed Martin IMS.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. I have no such plans, commitments 
or agreements.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. If confirmed, I will have no such ongoing 
financial arrangements or agreements. The only financial connections 
that I presently retain with my previous employer are as follow: (a) 
investments in Lockheed Martin IMS 401(k) retirement funds, as 
described in detail on my financial disclosure forms; (b) 2,300 shares 
of Lockheed Martin common stock options (fully vested); and (c) 
supplemental retirement plan investments and deferred management 
incentive plan investments held by Lockheed Martin as part of the IMS 
retirement program.
    In consultation with the Office of the General Counsel at the 
Department of Transportation, I will rollover all IMS 401(k) retirement 
accounts into widely diversified mutual funds. Upon confirmation, I 
would immediately either exercise or voluntarily surrender all stock 
options. Following termination of my employment at IMS, the 
supplemental retirement account and deferred management incentive 
compensation account balances are--according to corporation policy--
being liquidated and will shortly be paid as ordinary income. Together, 
these three steps would totally sever all financial relationship to my 
previous employer.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could, in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? After carefully reviewing my 
employment history with the Department's Acting General Counsel and her 
staff, I anticipate no conflicts of interest that would significantly 
affect my ability to discharge the. position for which I have been 
nominated. At present, I am fully recused from matters dealing with 
Lockheed Martin IMS, Baker Botts, LLP, and--pending rollover of 
retirement accounts and exercise or surrender of stock options--
Lockheed Martin Corporation.
    The recusal agreement that would apply to me as Deputy Secretary 
has been conveyed to the Committee by the Department's Acting General 
Counsel. First, and consistent with Department of Transportation policy 
and regulations of the Office of Government Ethics, there would be a 1-
year period during which I would be recused from any matter before the 
Department related to my former employer, Lockheed Martin IMS. As a 
matter of practice, during my employment at IMS there have been few 
matters where IMS has dealt directly with the Department. Second, I 
would be recused from matters involving the law firm at which my wife 
is employed, Baker Botts, LLP. As a practical matter, her firm too has 
very little business before the Department. My wife, who is not an 
attorney, has not been personally involved in work regarding 
transportation issues before the Department.
    Until such time as I execute the actions outlined above, I would 
continue also to be recused from any issues regarding Lockheed Martin 
Corporation. If confirmed, throughout my tenure at DOT I will regularly 
consult with the Department's Office of General Counsel not only to 
avoid any actual conflict of interest, but also the appearance of any 
such conflict.
    4. Describe any activity during the past.10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. I will divide my 
answer into two parts: first, dealing with the final 2 years of my 
previous Federal service; and second, with the immediate past 8 years, 
during which I have been employed in the private sector.
    First, while chief of staff at DOT, I was involved in several 
particular issues that included direct negotiations with the Congress. 
Working for Transportation Secretary Andrew Card, I was the 
Department's senior Hill negotiator with the Congress for crafting 
legislation that resolved a national railroad strike in 1992. In 
addition, I had ongoing oversight of Senate confirmation preparations 
for Department appointees and management of various other budgetary and 
policy issues for which Department officials provided testimony or 
other feedback to Members of Congress.
    Second, while at Lockheed Martin IMS, I can recall no issue 
regarding which I have lobbied, testified or otherwise directly sought 
to affect Federal legislation. Once, on behalf of IMS, I filed written 
comments with the Department of Transportation on a Request for 
Information released by the Federal Highway Administration regarding 
transponder standards for commercial vehicles. Also at IMS, I 
periodically provided briefings, counseled with or answered questions 
for various Department officials regarding IMS businesses in service to 
State governments and other public agencies. For example, IMS has a 
long-term contract to support HELP, Inc., a non-profit public-private 
partnership under which some 21 State governments provide electronic 
weigh station clearance services to the motor carrier industry. I have 
worked directly with HELP's Board of Directors and with numerous states 
to encourage adoption of this service--called PrePass--and to maximize 
interoperability among systems that provide for electronic clearance 
services. In addition, I have worked with numerous State governments 
to' market or support IMS's ongoing electronic toll collection services 
and electronic clearinghouse services.
    While at the American Trucking Associations, I assisted ATA's 
management team in formulating and advocating a wide range of public 
policy positions that represented the interests of its members. My 
particular areas of policy focus at ATA were international and 
intermodal policy. While at ATA, I was only rarely involved in direct 
discussions with public policymakers. During the initial year of my 
employment at ATA, I was expressly prohibited from representing any 
interests before the Department of Transportation.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. See answer to Questions C(1) and C(3), above, and refer to 
Acting General Counsel's opinion letter.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details? I have not been 
personally involved in any such circumstances, nor have any such 
actions been triggered by my actions. Several years ago, Lockheed 
Martin IMS's Children and Family Services--a line of business within 
IMS for which I had no direct responsibility--was involved in 
litigation with California regarding a software development contract. 
The case was tried and the court held fully in support of IMS. IMS is 
part of a large corporation with numerous subsidiary businesses. I did 
not materially participate in business matters outside IMS, and 
therefore have no specific knowledge as to whether any of the many 
Lockheed Martin firms or their predecessor organizations may have been 
involved in an administrative agency proceeding or civil litigation.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None of which I am aware.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by Congressional committees for information? Yes, to the 
best of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes, to the best of my ability.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes, to 
the best of my ability.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress. I 
will work with every mode to ensure that regulations meet the statutory 
intent of legislation. Although the Administrative Procedure Act limits 
Departmental communication during the rulemaking process, I will do my 
best to keep Congress informed about the timetable and substance of 
proposed regulations. At the same time, Members of Congress have stated 
their interest in streamlining the rulemaking process so that 
regulations are expeditiously promulgated. This is a top goal for 
Secretary Mineta, and I expect to take a central role in making the 
rulemaking process more accountable and efficient.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives. The Department of 
Transportation's central mission is to support safe and efficient 
transportation. The Department's core activities include direct 
assistance as provided by law, regulatory oversight and enforcement, 
operational safety services, public education and research.
    The existing Strategic Plan establishes five operational objectives 
for the Department of Transportation for 2000-2005. First, the 
Department will promote health and safety by reducing the number,of 
transportation-related injuries and deaths. Second, the Department will 
improve mobility by delivering an accessible, affordable and reliable 
transportation system for people and goods. Third, the Department will 
support economic growth. Fourth, the Department will work to enhance 
the human and natural environment. Fifth, the Department will ensure 
the security of the national transportation system. While I agree and 
certainly support these strategic objectives, if confirmed, I would 
work with the Secretary to review the plan, enhance or refine it as 
necessary, and manage the Department in support of these objectives.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How have your previous professional experience and education 
qualified you for the position for which you have been nominated? As 
discussed above, my professional work experience has focused on a wide 
range of transportation policy issues. This includes positions in the 
executive branch in two Administrations, and senior management roles 
with a transportation trade association and a high-tech transportation 
business. Early in my professional career, I was a college professor 
doing teaching and research regarding American political institutions. 
Collectively, these professional responsibilities have given me a 
breadth of experience that I think is useful to a candidate for the DOT 
Deputy Secretary position.
    2. Why do you wish to serve in the position for which you have been 
nominated? For a transportation professional, the opportunity to do 
this particular job at this Department is an extraordinary honor and a 
professional challenge that is without parallel. Moreover, working for 
people you respect makes one's career a delight, and I very much admire 
President Bush and Secretary Mineta. Finally, because the decisions 
facing Federal transportation policymakers are so momentous, I'd relish 
waking up each day to face this challenge.
    3. What goals have you established for your first 2 years in this 
position, if confirmed? The Department's mission is, above all, to 
promote safety. My first objective would be to work to improve 
transportation safety in all its facets, in all modes, every day.
    Second, the U.S. faces an urgent imperative to ease congestion and 
improve transportation efficiency. We face a serious capacity shortfall 
that is choking our vital aviation system, and too many clogged 
roadways or inadequate transit systems that rob American families and 
businesses of time and money. From equipping our Coast Guard to save 
lives at sea, to empowering the handicapped with access to robust 
transportation systems, the challenges facing this Department are 
intensely important.
    The spirit of innovation is America's genius--and the Department 
can do more to harness that genius to ease congestion, to streamline 
and accelerate transportation improvements. If confirmed, I would 
aggressively support Secretary Mineta, who is passionately committed to 
meeting these twin goals of transportation safety and efficiency.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? I would expect to refine and expand my 
existing management and policy skills. It would certainly be necessary 
to obtain a more up-to-date and detailed knowledge of the specific 
policy and management challenges facing the Department. I would work 
with the Department's staff, Administration officials, the Congress and 
other relevant transportation stakehblders to enhance my understanding 
of issues facing the Department.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. The 
President spoke in his campaign of compassionate conservatism, and this 
expression--however laden with the emotions of a close campaign--does 
balance two touchstones that I fully embrace.
    It is evident that much of America's economic prosperity is owed to 
the significant investment that has been made by our government to 
create an extraordinary transportation infrastructure. We cannot 
continue to prosper without such investment. At the same time, the 
Federal Government is itself often slow to innovate, and too reluctant 
to act as an incubator for technology or services that can more 
effectively be discharged with public-private partnerships.
    Congress has wisely embraced an imperative periodically to 
reexamine and reauthorize our fundamental transportation programs. In 
the coming 4 years, the nation's core transportation programs will 
receive such scrutiny. I believe that a systematic commitment to 
continuous innovation within the Department will be essential to 
forging an effective partnership between the Congress and the 
Administration to meet our current transportation challenges.
    It is difficult to define a single rule that could be used to 
determine the manner and extent to which private sector investment and 
management should take precedence over solutions that are funded and/or 
managed exclusively by the public sector. Such decisions should flow 
from a case-by-case examination of options. I do think that effective 
public-private partnerships are an essential tool for addressing 
transportation infrastructure investments. I am convinced that public 
transportation policy decisions should, where consistent with the 
public interest, encourage private sector solutions to transportation 
problems. Much of the Department's Intelligent Transportation Systems 
program has used Federal funding to test technology solutions that will 
subsequently be deployed sometimes with private funding only, and on 
other occasions with a combination of state, private and Federal 
funding. The Federal Contract Tower Cost Share Program is a good 
example of an ongoing, effective public-private partnership.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. The 
Department of Transportation has a large and varied mandate with a core 
commonality of purpose to: protect the safety of the traveling public; 
manage complex nationwide transportation infrastructure investments; 
increase the efficient movement of goods and people; encourage 
transportation innovation as a tool to increase transportation 
capacity; and regulate transportation industries in ways that guarantee 
public safety while encouraging continued private sector investment in 
transportation.
    The Department's agencies and organizations, of course, have 
specific programs and performance objectives that grow out of each 
organization's unique history and statutory mission: The Federal 
Aviation Administration has an important two-part focus: to provide 
certification for civilian aircraft designs, and regulate ongoing 
maintenance and flight operations to protect air safety; and to build, 
maintain and operate the nation's air traffic control system. The 
agency faces important challenges in modernizing the ATC system in 
order to meet growing demand on the air traffic system. The Federal 
Highway Administration has responsibility for our nation's core highway 
and bridge program. Since passage of the landmark ISTEA and subsequent 
TEA-21 legislation, FHWA's mission has grown to include an important 
focus on promotion of intermodal transportation connections and 
``Intelligent Transportation Systems.'' The newly-created Federal Motor 
Carrier Safety Administration oversees not only vehicle safety but 
operational safety and performance through regulations such as those 
for commercial drivers licenses. The Federal Railroad Administration 
regulates safety of equipment and operations of our nation's vital rail 
transportation infrastructure. The Federal Transit Administration 
assists states and communities by: providing transit services that 
reduce urban congestion; supporting essential access to rural areas; 
and providing mobility for Americans from all walks of life--including 
those with disabilities. The Maritime Administration promotes the 
vitality of a U.S. flag merchant marine in support of the nation's 
defense capabilities. The National Highway Traffic Safety 
Administration oversees safety standards for automobiles and other 
vehicles in order to reduce fatalities and injuries resulting from 
highway crashes. It supports research and public education activity on 
a broad range of safety measures, and it sets fuel economy standards 
for automobiles and light trucks. The Research and Special Programs 
Administration oversees pipeline safety and the transportation of 
hazardous materials. It also has especially important responsibilities 
in managing the Department's response to hurricanes, earthquakes and 
other emergency situations. The Saint Lawrence Seaway Development 
Corporation operates and promotes its unique national waterway asset. 
The United States Coast Guard oversees regulation of vessels and 
seamen, and provides air and sea rescue services that, on average, save 
ten lives daily. Recent years have given the Coast Guard enhanced 
responsibilities in discharging its national defense obligations--
including routine deployments with the U.S. Navy--and with other 
missions including drug interdiction and enforcement of fishing, 
immigration and pollution statutes. The Bureau of Transportation 
Statistics collects data and conducts research that makes the 
Department operate more intelligently. It supports public policy 
formation and business investment in the transportation sector. The 
Office of the Secretary provides policy leadership, and management 
oversight for the abovementioned Department components. It also 
administers aviation economic regulatory fimctions, civil rights 
functions and contracting appeals.
    7. In reference to question No. 6, what forces are likely to result 
in changes to the mission of this agency over the coming 5 years. 
Increasing pressure on existing transportation networks will require 
continuous improvement and refinement of the Department's mission and 
focus. Global trade and interdependency will affect all modes of 
transportation. The Department has unique responsibilities for 
transportation security and protection of vital national transportation 
interests--for example, in meeting the Coast Guard's national defense 
mission, guaranteeing essential sealift and airlift capacity and 
thwarting terrorist threats.
    Congestion and consolidation in the surface freight transportation 
and aviation industries will require thoughtful evaluation of how the 
Department can best support intermodal freight and passenger movements. 
Implementation of specific mandates such as the NAFTA truck access 
provisions and ongoing open skies negotiations will contribute to the 
ability of the United States to compete effectively in international 
markets. It is essential that the Department aggressively support and 
encourage technological innovation to increase mobility and 
transportation efficiency. In doing so, we should be supportive of 
public-private partnerships that can deliver transportation services.
    In much of the Department's work, it will be necessary to balance 
twin goals of environmental sensitivity with the requirements for 
expanded transportation infrastructure investments. Doing this and more 
at the Department of Transportation means we must attract and retain a 
highly professional staff at the Department--a challenge that will 
require focused management attention. Finally, I think we should be 
willing continually to evaluate the Department's regulatory approach--
to throw out or refine what is no longer necessary and look anew at 
technology and public policies that can help reduce transportation 
fatalities and injuries.
    8. In further reference to question No. 6, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
department/agency and why? With support of the Congress, the Department 
can successfully meet its mission. I agree with and here paraphrase 
Secretary Mineta's formulation of the top three challenges facing the 
Department: (1) maintaining focus and effectiveness in a world that is 
increasingly globalized, interconnected, and, I would add, consolidated 
in the delivery of transportation services; (2) managing the Department 
to meet its historical mission of protecting safety while innovating in 
our service delivery; and (3) working with Congress to ensure that the 
Department has adequate resources.
    9. In further reference to question No. 6, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years. Although there are cases where the 
Department has clearly failed to meet its mission objectives, I'd 
prefer not to throw too many stones in this regard prior to having a 
firsthand look. That being said, in several of the large-scale 
Department procurements there has for years been an unacceptable 
measure of resistance to change, a failure to think and manage 
innovatively and insufficient financial and contracting discipline. If 
confirmed, I'd welcome future discussions of ``lessons learned'' in 
working with the Committee.
    10. Who are the stakeholders in the work of this agency? Agency 
stakeholders are the Congress, State and local elected officials, the 
traveling public, transportation businesses, and the workers who build, 
maintain and operate our nation's transportation systems. More broadly, 
virtually all Americans are transportation stakeholders, as we all rely 
on our nation's transportation network for delivery of essential goods 
and services, delivered in a cost-effective and environmentally 
sensitive manner.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten. 
Secretary Mineta has stressed the importance of accessibility and 
accountability as essential obligations of the Department. In 
consultation with transportation stakeholders, I would listen, learn, 
and work routinely with transportation stakeholders in discharging my 
official duties.
    12. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure that 
your agency has proper management and accounting controls? The 
Department has a centralized budgetary office led by the Assistant 
Secretary for Budget and Programs. That individual also serves as the 
Chief Financial Officer of the Department. The Department's Deputy 
Secretary has historically had significant duties in managing day-to-
day operations of the Department, and, if confirmed, I would work 
closely both with the Assistant Secretary and the Inspector General to 
implement Departmental programs effectively.
    Sound financial controls are utterly essential. Lack of such 
controls means that, inevitably, the Department will squander precious 
financial resources needed to support our mission. Based on my work in 
private sector companies, I am convinced that the Department can profit 
from more robust financial controls and improved management tools to 
measure program performance and to track progress routinely. (b) What 
experience do you have in managing a large organization? I have had 
experience managing large organizations both in the public and private 
sectors. With my earlier tour of duty at the Department of 
Transportation, as chief of staff to the Secretary, I assisted with 
management oversight of the full range of departmental activity. At 
Lockheed Martin IMS, I was chief operating officer for a diverse, 
nationwide technology business with revenues in excess of $100 million 
annually.
    13. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. I strongly support the Government Performance 
and Results Act. This legislation requires the Department to establish 
measurable program targets, and it has helped the Department develop a 
coherent vision. I understand that over the past several years, the 
Department's Strategic Plan has been cited as one of the strongest in 
the Federal Government. Although I was not involved in the development 
of this document, I will work to implement and constantly improve the 
Strategic Plan. (b) What steps should Congress consider taking when an 
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing or consolidation of 
departments and/or programs? The Congress has a right to expect that 
the Department will meet its core performance objectives. If the 
Department or an agency fails to meet its goals, there should first be 
an evaluation of the failure and subsequent dissemination of lessons 
learned. It is important to empower managers to show energy and 
innovation in government. At the same time, poor performance must have 
consequences, individually and organizationally. Those certainly might 
include eliminating, privatizing, downsizing or consolidating programs. 
(c) What performance goals do you believe should be applicable to your 
personal performance, if confirmed? Performance involves both integrity 
and capability. First, simple honesty and the highest ethical standards 
are the unalterable obligations. Members of the Committee have my 
unequivocal assurance that they can expect nothing less from me. 
Moreover, if confirmed, I would join the Secretary in insisting on the 
same from all Department employees.
    As Deputy Secretary, I would expect to be personally committed to 
the full range of the Department's strategic goals, and personally 
engaged in managing performance to those objectives. I would seek 
direction from the Secretary in prioritizing those areas of specific 
activity that would have my highest level of involvement.
    14. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? I insist on high 
ethical standards, set manageable goals, treat everyone with respect, 
try to empower my colleagues to act with energy and professionalism, 
measure performance with facts, celebrate success, and hold people 
accountable for failure. I try to get out from behind my desk and see 
what is actually happening with the enterprise. I value people who are 
passionate about their views, who will argue with grace. The words 
``because we've always done it this way'' light my fuse.
    I am not aware that any employee complaints have been brought 
against me in government or the private sector.
    15. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. If confirmed, I would expect to work 
closely and regularly with Members of Congress on both sides of the 
aisle. In past Executive Branch jobs I have worked intensively with 
Congress on several matters, for example, on legislation needed to 
resolve a 1992 rail strike. If confirmed as Deputy Secretary, it would 
be a key priority to manage my time and that of other Department 
executives to work closely, supportively and in a bipartisan manner 
with Members of Congress and their staffs.
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency. The Inspector General and the Deputy Secretary must 
have a close and candid working relationship. The Deputy Secretary is 
responsible for management oversight of the Department's ongoing 
operations, which historically has gained much from the work of the 
Inspector General. The Inspector General brings an important, 
statutorily protected independence to evaluating Departmental 
performance, with reporting obligations to both the Secretary and the 
Congress. This is an asset I respect and value. I have already read and 
obtained valuable insights from the recent reports and testimony of the 
current DOT Inspector General.
    17. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. Members 
of Congress are elected; Department of Transportation employees are 
not. The Department must act with utmost diligence to ensure that duly 
enacted laws are enforced. Its regulations must comply fully with the 
letter and spirit of laws passed by Congress. In particular, I would, 
if confirmed, work to achieve timely implementation of the Department's 
regulatory agenda.
    It is an essential obligation of the Department to consult 
consistently and carefully on contemplated regulations with 
transportation stakeholders, but most certainly with Congress. In its 
administrative processes--and its core orientation to serve and learn 
from the public--the Department must continually solicit broad 
participation in rulemaking activity.
    18. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. Generally speaking: (1) actions that improve 
transportation safety; and (2) implementing transportation policies and 
infrastructure improvements to ease congestion and increase efficiency.
    Although I have not yet fully studied all major policy and 
management issues involving the Department, the following specific 
areas evidently require the joint work and attention of the 
Administration, including the Department, and Congress: The Federal 
Aviation Administration's ATC modernization is a critical element in 
meeting demand for our nation's air system. The congestion problem 
will, I think, require commitments not only of the Federal Government, 
but of the aviation industry and airport operators alike; 
Reauthorization of AIR-21 and TEA-21, although not imminent, will offer 
important opportunities to ease congestion and improve air, highway and 
transit programs. I would welcome an opportunity to work with President 
Bush, Secretary Mineta and the Congress to assess what is working and 
what improvements need to be incorporated into these vital 
reauthorization efforts; In the near-term, completion of reauthorizing 
legislation at NHTSA, RSPA, FRA, MARAD and the U.S. Coast Guard, are 
also essential legislative priorities to provide ongoing support to the 
Department's mission; To maintain the Coast Guard's ability to 
discharge its growing and vital mission, support for the deepwater 
asset replacement program and support for ongoing operations is 
essential; A full assessment of what is needed and possible for 
maintaining a viable national passenger rail service will be needed; 
Finally, I would hope to work with the Secretary and Congress to 
strengthen the Department's ability to manage important economic and 
regulatory decisionmaking related to issues such as airline mergers and 
route decisions, NAFTA implementation, and intelligent transportation 
systems technology.
    19. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a timeframe for their implementation. 
I strongly believe that discretionary funds must be allocated on a 
fair, fixed and published set of criteria. Funding musi, of course, 
reflect the statutory intent of authorized programs. I will familiarize 
myself with the 1998 Inspector General's report on discretionary 
programs and the Committee's hearings on this issue. I also wish to 
evaluate personally the effect of Congressional earmarking on FHWA, FTA 
and FAA discretionary programs as rapidly as possible.

    The Chairman. Thank you very much.
    Ms. Becker, welcome.

 STATEMENT OF BRENDA L. BECKER, ASSISTANT SECRETARY-DESIGNATE 
FOR LEGISLATIVE AND INTERGOVERNMENTAL AFFAIRS, U.S. DEPARTMENT 
                          OF COMMERCE

    Ms. Becker. Thank you, Senator Burns and Senator Lott for 
the kind remarks, and thank you Mr. Chairman, Mr. Hollings and 
members of the Committee. I do want to thank, I really 
appreciate all your staff work and courtesies that all of the 
people here have afforded me and the other staff.
    I also, I have already obviously introduced my family but 
there are some people over at the Department of Commerce that 
have been invaluable to me as I've started over there in the 
last several weeks and they are Karen Swanson-Woolf, Mike 
Levitt, Vicki Horton and Jim Schufreider, and I know many of 
you have worked with them. They are the stability at the 
Department of Commerce and I find them to be extremely 
dedicated and committed and I just really want to thank them. I 
am truly honored and humbled to be here today in front of and 
you I will work very hard and diligently to respond to all of 
your requests, both sides of the aisles, Governors in the 
states, and State legislators to advance not only the 
Administration's agenda, but also the Department of Commerce's 
agenda, and I really look forward to working with you.
    I do have a prepared statement for the record and I am 
prepared to answer any questions you have for me today and 
thank you.
    [The prepared statement and biographical informational of 
Ms. Becker follow:]
           Prepared Statement of Brenda Jane Larsen Becker, 
        Nominated to be Assistant Secretary for Legislative and 
           Intergovernmental Affairs, Department of Commerce
    Mr. Chairman, Members of the Committee, it is a pleasure for me to 
appear before you today as the nominee for Assistant Secretary for 
Legislative and Intergovernmental Affairs for the Department of 
Commerce. I sincerely appreciate the courtesies that the Committee and 
the Staff have afforded me during this process.
    In addition, I want to thank my family and friends--especially my 
husband Jeff, who has made it possible for me to pursue this position 
in the Administration. My daughter--Megan and son--Max. Also I want to 
recognize and thank another very influential and special person in my 
life--my father. My Dad has served as my role model and has inspired me 
to seek public service.
    I am honored and humbled to have been nominated to serve President 
Bush and the American people. I am also very grateful to Secretary 
Evans for the confidence he has shown in me by recommending me for this 
job. I am dedicated and look forward to serving in the public interest 
through the many programs and services provided by the Department of 
Commerce. The reward for me is the opportunity to work on issues that 
touch the lives of every American. The impact of the Department's 
programs on the day-to-day lives of Americans from the weather and 
ocean services to trade and economic development are extraordinary, and 
I hope to have the opportunity to tell that story.
    Throughout my professional career at Blue Cross and Blue Shield, I 
have worked in the public policy arena to further the goals of a large 
organization in a way that included stakeholders, respected a diversity 
of views, developed consensus, effectively communicated an agenda, and 
achieved results for the organization. If confirmed, I believe these 
experiences have prepared me well for the challenges I will face at the 
Department of Commerce.
    In my view, the Department of Commerce supports and promotes 
American business abroad to expand the trade and exports of those 
companies, which will hopefully result in a better economy for the 
American people. The Department of Commerce, as the voice of business 
within the Administration, has long been a leader in advocating and 
using market-oriented regulatory approaches in lieu of traditional 
command-and-control regulations when such approaches offer a better 
alternative.
    The diverse mission of the Department of Commerce, as noted by 
Secretary Evans in his confirmation hearing, is ``to foster a 
marketplace where ideas and energy can thrive; where the 
entrepreneurial spirit indeed will flourish.'' In this new millennium, 
the changing world driven by a global marketplace and technological 
innovations make for a very interesting and exciting time at the 
Commerce Department. I believe that the Department can serve a critical 
role in enabling people to achieve a greater level of freedom and 
independence for themselves and their families. While there may be 
changes to particular programs through the authorizations and 
appropriations processes, I believe that the fundamental mission of the 
Department will continue to be rooted in the principle of improving the 
climate of economic opportunity for all Americans.
    There are a number of major programs within the Department of 
Commerce (DOC), ranging from export enforcement and trade in the Bureau 
of Export Administration and International Trade Administration, to 
weather, water, climate, oceans, and fisheries programs of the National 
Oceanic and Atmospheric Administration. In addition, the Department has 
major economic development programs through the Economic Development 
Administration and the Minority Business Development Agency. Other 
major programs of the Department deal with technical standards, 
statistics and critical economic data. The Patent and Trademark 
programs are of vital interest to American business, inventors and 
entrepreneurs. No other Department is arguably more involved with 
technology and enabling American business to develop, manufacture and 
export technology for peaceful purposes. The Technology Administration, 
the National Institute of Standards and Technology and the National 
Telecommunications and Information Administration all play key roles in 
that effort.
    As Secretary Evans stated, the major operational objectives of the 
Department are to ``direct the Department's great and diverse resources 
to the common cause of fostering economic strength at home and 
abroad.'' He intends for the Department to work well for all Americans, 
and I am committed to helping him and the President achieve that goal.
    More specifically, with regard to the operations of the Office of 
Legislative and Intergovernmental Affairs, my goal is to work with the 
Secretary of Commerce and the DOC Bureaus to advance the President's 
agenda as it relates to the programs and activities of the Department 
of Commerce.
    Second, in order to accomplish that goal, I will work with the 
Department to assemble a dedicated team of professionals, new hires and 
career civil servants, to educate and inform Members of Congress, 
Governors, and their staffs, as to the needs, challenges and strengths 
within the Department's diverse programs.
    Third, if confirmed, my team will work in a coordinated fashion 
with the other key elements of the Department in order to respond to 
every Member of Congress and every Governor in all 50 states including 
the U.S. territories as rapidly as possible and with the best 
information available. Informing and responding to Members of Congress, 
Governors, and their staffs, I believe is the major overwhelming 
mission of the Office. I will work to develop a relationship with our 
stakeholders and to treat all stakeholders fairly, without regard to 
position or party.
    While I have much to learn, I believe I bring a useful new 
perspective to this position based on years of experience in the 
private sector. Working with the talented, experienced and dedicated 
employees of the Commerce Department, we must find new and better ways 
of doing the business of the Commerce Department.
    Over the last several months, I have learned that the American 
people are ultimately the stakeholder in the work at the Department of 
Commerce. The Department's diverse programs and activities touch all 
Americans. From weather forecasts to economic development assistance, 
the Department's breadth and scope of programs help make all Americans 
more productive every day. There are more specific stakeholders, first 
and foremost among those in Congress. There are numerous others, such 
as scientists, trade experts, economists, inventors, statisticians, 
broadcasters, and business leaders. The Department's many programs 
touch those constituencies and many more.
    Mr. Chairman, if confirmed you have my commitment for an open and 
honest dialog to work together to build partnerships and work together 
with you and the Committee to find solutions that best serve the needs 
of the American public. My task will be to assist the Secretary and the 
Administration in sharing their views and objectives with this 
Committee and other Members of the House and Senate, as well as taking 
your concerns and views back to the Department and the administration. 
If I am confirmed, I want to work on enhancing a partnership with the 
Department on rekindling a spirt of hope and optimism in this country, 
and I look forward to playing a role in that effort with the help of 
you and this Committee.
    Thank you Mr. Chairman for the opportunity to be here today. I am 
prepared to answer any questions.
                                 ______
                                 
                      a. biographical information
    1. Name: Brenda Jane Larsen Becker, Brenda Becker.
    2. Position to which nominated: Assistant Secretary for Legislative 
and Intergovernmental Affairs--Department of Commerce.
    3. Date of Nomination: March 29, 2001.
    4. Address: Information not released to the public.
    5. Date and place of birth: October 6, 1959; Mt. Clemens, Michigan.
    6. Marital status: Married, Maiden name: Larsen.
    7. Name and ages of children: Megan Elizabeth Becker, 9; Jeffrey 
Maxwell Becker, 6.
    8. Education: Attended Michigan State University from 1977-1981, 
Bachelor's of Art in Political Science degree granted in June 1981; 
Attended Central Michigan University from 1982-1985--Master's of Art in 
Business degree granted in August 1985.
    9. Employment Record: 1981-1985, Blue Cross and Blue Shield of 
Michigan: Policy analyst, Senior Projects Coordinator, 1985-2001, Blue 
Cross and Blue Shield Association: State Services Representative: 
Manager, State Services; Political Action Committee Director; Director, 
Congressional Communications; Executive Director, Congressional 
Communications; Vice President, Congressional Communications.
    10. Government Experience: None.
    11. Business Relationships: Officer: Blue Cross and Blue Shield 
Association--1998-2001.
    12. Memberships: Member of Woodmore Country Club. See attached 
addendum for history of memberships.
    13. Political Affiliations and activities: (a) None. (b) Chairman, 
Republican National Committee's Majority Fund program; Co-Chairperson 
of the Republican House-Senate Dinner; have participated in activities 
for the National Republican Congressional Committee and the National 
Republican Senatorial Committee (See attached addendum). (c) 
Contributions*: BluePac (I have given to the Pac for many years, but 
this is all the information I could obtain): 1997--$440, 1998--$650, 
1999--$650, 2000--$650; Candidates: 9-29-98, Musser for Congress--$500, 
3-31-99/6-30-99, Allen for Senate--$250/$500; 4-29-99/6-11-99, 
Elizabeth Dole for President--$250/$750; 11-26-99/5-30-00/7-20-00, Bush 
for President--$500/$1000/$500; 10-30-00, Republican National 
Committee--$500.
---------------------------------------------------------------------------
    * This is the best of my knowledge--do not have records except 
Federal Elections Commission.
---------------------------------------------------------------------------
    14. Honors and awards: None.
    15. Published Writings: None.
    16. Speeches: None.
    17. Selection: (a) I was selected for this position because of my 
experience in the field of government relations. (b) My background in 
both State and Federal government relations and my leadership and 
management experience provides me with the qualifications for this 
position.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate. Yes.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? No.
    3. Do you have any plans, commitmentsor agreements after completing 
government service to resume employments, affiliations or practice with 
your previous employer, business firm, association or organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes, that is 
my intention.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements and other continuing dealings with business associates, 
clients or customers? None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships, which could involve potential conflicts of interest in 
the position which you have been nominated? None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or pubic policy. I have been with 
the Blue Cross and Blue Shield organization for 20 years and have 
lobbied Health Care and Insurance related issues on Capitol Hill during 
that time.
    5 Describe your department/agency's current mission, major programs 
and major operational objectives. In my view, the Department of 
Commerce has the mission to support and promote American business 
abroad to expand the trade and exports of those companies, which will 
hopefully result in a better economy for the American people.
    More specifically, with regard to the operations of the Office of 
Legislative and Intergovernmental Affairs, our objective is to serve as 
the best possible liaison between the Department of Commerce and the 
Congress, and between the DOC and State and local governments. I 
believe that by facilitating communications between the DOC and the 
Congress, I can help promote the Department's objective to support 
American business.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How have your previous professional experience and education 
qualify you for the position in which you have been nominated? 
Throughout my professional career at Blue Cross and Blue Shield, I have 
worked to further the goals of a large organization in a way that 
included stakeholders, respected a diversity of views, developed 
consensus, effectively communicated an agenda, and achieved results for 
the organization. If confirmed, I believe these experiences have 
prepared me well for the challenges I will face at the Department of 
Commerce.
    2. Why do you wish to serve in the position for which you have been 
nominated? I am honored and humbled to be nominated to serve the 
President and the American people as the Assistant Secretary for 
Legislative and Intergovernmental Affairs. I have spent my career 
working in the public policy arena and if I am confirmed, this will be 
an opportunity for me to use my talents for public service.
    3. What goals have you established for your first two years in this 
position, if confirmed? If confirmed, my foremost goal is to work with 
the Secretary of Commerce and the DOC Bureaus to advance the 
President's agenda as it relates to the programs and activities of the 
Department of Commerce.
    Second, in order to accomplish that goal, I will work with the 
Department to assemble a dedicated team of professionals, new hires and 
career civil servants, to partner, educate and inform Members of 
Congress, Governors, and their staffs, as to the needs, challenges and 
strengths within the Department's diverse programs.
    Third, if confirmed, my team will work in a coordinated fashion 
with the other key elements of the Department in order to respond to 
Member and Governor inquiries as rapidly as possible, with the best 
information available.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? The Department of Commerce and its nine 
bureaus is very diverse and I am certainly not an expert on all of the 
issues facing this agency, however, if confirmed, I will build a team 
with expertise and do what it takes to learn the issues.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. The 
primary role of the government is to protect our freedom. With respect 
to the private sector, the government's role should be a facilitator 
providing incentives to promote market growth and to help people become 
independent. Government should not be a barrier to growth. As with any 
program or project that is evaluated, if it is not meeting the stated 
objective than it should be revised to meet a new need or eliminated.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. I agree 
with the Secretary's statement at his confirmation hearing that the 
mission of the Department of Commerce is to ``foster a marketplace 
where ideas and energy can thrive; where the entrepreneurial spirit 
indeed will flourish.'' I believe the Department can serve a critical 
role in enabling people to achieve a greater level of freedom and 
independence for themselves and their families.
    There are a number of major programs within the DOC, ranging from 
export enforcement and promotion of trade in the Bureau of Export 
Administration and International Trade Administration, respectively, to 
weather, water, climate, oceans and fisheries programs at NOAA. In 
addition, the department has major economic development programs 
through the Economic Development Administration and the Minority 
Business Development Agency. Major programs of the Department deal with 
technical standards, statistics and critical economic data. The Patent 
and Trademark programs are of vital interest to American business, 
inventors and entrepreneurs. No other department is arguably more 
involved with technology and enabling American business to develop, 
manufacture and export technology for peaceful purposes. The Technology 
Administration, NIST, and NTIA all play key roles in that effort.
    As Secretary Evans stated, the major operational objectives of the 
Department are to ``direct the Department's great and diverse resources 
to the common cause of fostering economic strength at home and 
abroad.'' He intends for the Department to work well for all Americans, 
and if confirmed, I am committed to helping him and the President 
achieve this goal.
    7. In reference to question number six, what forces are likely to 
result in chamyes to the mission of this agency over the coming years? 
I believe the mission of the Department will continue to be to foster a 
marketplace where ideas and energy can thrive and where entrepreneurial 
spirit will flourish. While there may be changes to particular programs 
through the authorization and appropriations processes, I believe that 
fundamental mission of the Department will continue to be rooted in the 
principle of improving the climate of economic opportunity for all 
Americans.
    8. In further reference to question number six, what are the likely 
outside forces, which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
department/agency and why? It is difficult to foresee what outside 
forces will come into play, but I am confident that the DOC will 
confront all challenges and develop creative solutions to overcome 
obstacles that might threaten our success.
    I am not certain I can place a ranking on the challenges facing the 
DOC and am advised that among the many difficult tasks before it are: 
(1) helping the President obtain trade promotion authority; (2) 
preparing for the best possible census for year 2010; (3) acting as a 
responsible steward of your Nation's ocean resources, without unduly 
encumbering America's business; and (4) revising our Nation's export 
control laws in a manner that in the first instance, protects our 
national security, but also allows our businesses to remain competitive 
in the international marketplace.
    9. In further reference to question number six, what factors in 
your opinion have kept the department/agency from achieving its 
missions over the past several years? My prior work experience was 
related to health care. I cannot speak from personal knowledge about 
the past successes or failures at the Commerce Department.
    10. Who are the stakeeholders in the work of this agency? The 
American people are ultimately the stakeholders in the work at the 
Department of Commerce. The Department's diverse programs and 
activities touch all Americans. From weather forecasts to economic 
development assistance, the Department's breadth and scope of programs 
help make all Americans more productive every day. There are more 
specific stakeholders, first and foremost among those in Congress. 
There are numerous others, such as scientists, trade experts, 
economists, inventors, staticians, broadcasters and business leaders. 
The Department's many programs touch those constituencies and many 
more.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number 10? The 
appropriate relationship is to build partnerships and work together to 
find solutions that best serve the needs of the American publlc.
    The Office of Legislative and Intergovernmental Affairs is 
primarily focused on informing and responding to Members of Congress, 
Governors, and their staffs. I believe the mission of the Office is to 
be as responsive as possible to each and every Member of Congress and 
Governor with the best information possible. I will work to develop a 
relationship with our customer and treat all fairly regardless of their 
position or party.
    12. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are the responsibilities, confirmed, to ensure that your 
agency has proper management and accounting controls? If confirmed, my 
accountability will be to fully understand the laws that govern the DOC 
and to work with the appropriate officials to ensure that these 
requirements are implemented. (b) What experience do you have in 
managing a large organization? As an officer of the Blue Cross Blue 
Shield Association, I was responsible for managing a department and a 
budget.
    13. The Government Performance and Results Act require all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving these goals. Every organization needs objectives to give them 
a common purpose for functioning. I believe that you need to know what 
you are trying to achieve so there is a clear set of expectations. 
Also, it is important to measure those goals so you know if you are 
successful. (b) What steps should Congress consider taking when an 
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing or consolidation of 
departments and/or programs? If an agency is not meeting its 
objectives, Congress will need to work with the Department to evaluate 
the program or initiative and take steps to put a performance 
improvement plan in place. If that does not work, then further action 
may need to be taken on a new direction. (c) What performance goals do 
you believe should be applicable to your personal performance, if 
confirmed? If confirmed, I expect to be held accountable for serving as 
an effective Congressional liaison and for assuring that the Commerce 
Department has the best possible relations with Members of Congress.
    14. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? My management style 
is to hire talented individuals, give them clear objectives and 
expectations and then empower them to do their job. I have been in a 
management position for over 10 years and I have only had one 
complaint.
    15. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. I have never held a position working 
for a Member of Congress or on a Committee; however, I have developed 
professional relationships with Members of Congress and their staffs as 
a lobbyist.
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency. The role of the IG is the same as an auditor in the 
private sector. I worked closely with the auditor at Blue Cross and 
Blue Shield to make sure that the proper processes and checks and 
balances were in place to assure compliance with all applicable rules 
and guidelines. This included bringing items of concern to the auditor 
to be reviewed If confirmed, I will continue this with the IG at the 
Department of Commerce.
    I am committed to being responsive to any and all requests received 
by the Inspector General's office.
    17. Please explain. how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. The DOC, 
as the voice of business within the Administration, has long been a 
leader in advocating and using market-oriented regulatory approaches in 
lieu of traditional command and control regulations when such 
approaches offer a better alternative. While not principally a 
regulatory agency, all regulations of the Department are designed and 
implemented to maximize societal benefits while placing the smallest 
possible burden on those being regulated.
    The Office of Legislative and Intergovernmental Affairs does not 
itself issue regulations and is not typically involved in the review of 
regulations issued by agencies of the Department. However, to the 
extent that I do participate in the regulatory review process, I will 
ensure that regulations issued by the DOC comply not only with the 
letter, but also the spirit of the laws passed by Congress.
    18. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? The 
Administration and the Department, through the budget process, will 
articulate the priorities for the Department as a whole. The 
Department's legislative priorities will be those that further the 
Administration and DOC's goals of fostering a marketplace where ideas 
and energy can thrive and where the entrepreneurial spirit can 
flourish. Certainly the Department's appropriations are a priority, as 
will those Administration initiatives contained in the President's 
budget request. In addition, there will be specific legislative efforts 
having to do with the reauthorization of certain Department programs. 
If confirmed, I look forward to working with the committee on those 
issues.
    19. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a time frame for their 
implementation. If confirmed, I will work with the Department Bureaus, 
OMB and Congress to ensure that all spending is based on national 
priorities determined in an open fashion.

    The Chairman. Thank you. Both of your prepared statements 
will be made part of the record. Your full statements will be 
made part of the record.
    Mr. Jackson, as Secretary of Transportation, Secretary 
Mineta has agreed to be recused from personal and substantial 
participation in particular matters having a direct and 
predictable effect on the financial interest of Lockheed Martin 
Corporation.
    Meanwhile, you have agreed if appointed to be Deputy 
Secretary to be recused for 1 year from participation in any 
particular matter involving specific parties in which, to your 
knowledge, Lockheed Martin IMS is a party or represents a party 
in the matter unless your participation is authorized pursuant 
to the regulations of the Office of Government Ethics.
    In responses to pre-hearing questions you also stated you 
would regularly consult with the Department's Office of General 
Counsel to avoid even the appearance of a conflict of interest. 
In order to avoid the appearance, if not an actual conflict of 
interest, do you believe it would be necessary to recuse 
yourself from departmental matters affecting Lockheed Martin 
Corporation, not just Lockheed Martin IMS?
    Mr. Jackson. Senator, I have consulted with the career 
counsel at the Department on that issue and their 
recommendation was that it was not necessary to recuse myself 
from the corporation. My work for Lockheed Martin IMS was 
unrelated to the larger work of the corporation. I would say to 
you, however, that I am mindful that it is important to avoid 
not only a conflict, as you say, but any appearance of a 
conflict. So I am happy to consult with counsel and, consult 
with you, if you feel that a larger recusal is necessary. That 
is something I'd be most happy to talk through and do the right 
thing on.
    The Chairman. Would your more narrow recusal have prevented 
you from being involved with a recently reported FAA decision 
to skip the competitive bidding process to award an air traffic 
control project to Lockheed Martin?
    Mr. Jackson. I am currently recused from everything related 
to Lockheed Martin Corporation based upon a need to remove 
retirement funds from the corporation's retirement fund. But if 
I were operating under the proposed guidance of the general 
counsel, it would not have been necessary to be recused in that 
matter. I understand that matter is something that has been 
underway for some period of time. What I know about it, 
honestly I've read in the newspaper.
    The Chairman. Well, let me just say we would like to work 
with you to make sure that we avoid any appearance of a 
conflict and we can have some conversations between now and 
when your nomination moves to the floor, although that will be 
very shortly. We intend to move both your nominations as 
quickly as possible.
    Just one more question. Mr. Jackson, I am concerned about 
comments made recently by Secretary Mineta regarding the 
Justice Department's review of pending airline mergers and 
acquisitions. Secretary Mineta reportedly remarked the Justice 
Department was not considering the views of the Transportation 
Department. He told them to ``butt out,'' with regard to the 
mergers reviews.
    Given that the Transportation Department is required to 
advise the Justice Department on airline mergers which are of 
the utmost importance to the traveling public, I find it 
disturbing to hear comments such as these.
    Have there been any subsequent attempts to get the Justice 
Department to work more closely with the transportation 
department on airline merger reviews?
    Mr. Jackson. Mr. Chairman, I am happy to report that 
subsequent to those comments from the Secretary, there have 
been good and candid and professional exchanges on these topics 
and the Secretary, I believe, feels that we are making good 
progress in being able to work to provide a broader range of 
input to the Justice Department in their review of these 
antitrust matters.
    The Chairman. I am glad to hear that because clearly the 
Justice Department cannot operate in a vacuum without the input 
and knowledge and information of the Department of 
Transportation and these mergers have been a subject of great 
concern to the American public as well as to members of this 
Committee.
    Ms. Becker, just one question for you. A big issue in 
Congress this year is election reform. Senator Hollings, 
Senator Cleland and I have introduced legislation to help 
states update their voting machine technology.
    Can you briefly discuss the Department's position on our 
legislation to direct the National Institute of Standards and 
Technology to establish voting system standards and test vote 
counting machines?
    Ms. Becker. My understanding at this point in time is we're 
reviewing that and looking at NIST's role and your legislation 
and I think we have been supportive in the past of looking at 
those standards and measures and will continue to do so.
    The Chairman. Thank you. Senator Stevens.
    Senator Stevens. Thank you very much, Mr. Chairman. Mr. 
Jackson, the Committee I chair is often subject of some 
comments, including from some of my friends, about our pork. I 
have been looking into the subject of the excessive spending of 
Departments and I've found several projects that really need a 
lot of attention.
    I think one of them is the Big Dig in Massachusetts 
originally scheduled to be about $2.4 billion. I am told it is 
over $10 billion now and it is going to require more money this 
year from our Committee.
    I want to commend to you to talk to the Secretary about the 
excess spending on projects that far exceed the estimates given 
to our Committees, particularly the Appropriations Committee in 
connection with the authorization and appropriation of funds 
for projects such as the Big Dig.
    I think it is time that we had some attention paid to 
wasteful excesses as well as to some of our add-ons that come 
from individual members. I am going to spend some time on that 
this year and I hope you will tell him we are going to spend a 
lot of time on the Big Dig.
    Ms. Becker, I hope to get your Secretary to Alaska sometime 
this year. As you know, we have an enormous fishery problem up 
there, related to the Steller sea lion, so I commend to you the 
subject and hope you can give him some advice and help me get 
him up there soon.
    Ms. Becker. As long as I can come with him.
    [Laughter.]
    Senator Stevens. It is very nice in the winter.
    [Laughter.]
    Ms. Becker. I would rather come to Arizona in the winter.
    [Laughter.]
    Senator Stevens. You ought to bring the family too. We 
ought to teach those two kids how to fish. Thank you very much.
    The Chairman. Senator Stevens, before I turn to Senator 
Burns, we have had a lot of interest in the Big Dig. We have 
had a couple of hearings in the past and tried to put a cap on 
it. It is now up to $13.5 billion. There is a recent report by 
the Inspector General of the State of Massachusetts, not of the 
Inspector General at the Department of Transportation, talking 
about excessive overruns and problems. The allegations of the 
Inspector General of the State of Massachusetts were ignored by 
State officials.
    It is a terrible situation and I am very pleased to hear 
that you are committed to trying to see, to look at this. It is 
now the single most expensive public works project in the 
history of this Nation and a lot of books are going to be 
written about these cost overruns and the incredible waste of 
the taxpayers' dollars and I thank you for being involved.
    Senator Burns. Senator Stevens. Just one comment. I was 
amazed when I saw the record of the fees and charges that were 
paid out of Federal funds to State agencies for review of the 
plans of people who received the contracts to proceed with 
that--I think there is a lot that needs to be done with regard 
to the charges the states impose upon Federal projects 
indirectly by putting those charges and making the contractors 
pay for those charges. But it will be an interesting hearing, 
Mr. Chairman. Thank you.
    The Chairman. Senator Burns.
    Senator Burns. Thank you very much, Mr. Chairman. I just 
have a statement more than anything else for Ms. Becker.
    We are really running a little bit late here on this 
Committee with regard to some telecommunications policy 
decisions and a lot of that is just because we just have not 
had anybody down at Commerce that was in place with NTIA so far 
and that is a very, very important position there. And I would 
ask that the Department of Commerce move very expeditiously in 
getting a person there because that will formulate the policy 
of this Administration on which direction they want to go as 
far as telecommunication is concerned.
    It is very, very important for the simple reason that 
coming out of Quebec City, as we talk to, of all people, the 
Department of Agriculture and the Secretary of Agriculture 
saying that in this hemispheric type situation of trade that 
telecommunications will be the cornerstone to make it work and 
to make it work for everybody involved in the hemisphere.
    And so my message to the Commerce Department is that I 
would like to see them move in that direction and to get us a 
person up here and get them confirmed because that is a very, 
very important position down there as far as this Committee is 
concerned, and I congratulate you on wanting to do this and I 
know you will just do a great job and that is the only thing I 
have, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. I am very 
pleased to be here and say that I am going to support both of 
your nominations to your respective positions. I have several 
concerns.
    First, as Chairman of the Aviation Subcommittee, I am very 
concerned with the clogged airports, the clogged air traffic 
control system and the inability of passengers to have a real 
feeling that they can rely on on-time service for airlines when 
they take an airline. So I am introducing legislation, 
hopefully it will be on the same markup with your nomination 
that will attempt to streamline the environmental reviews that 
will define on-time service as when an airplane takes off 
within 20 minutes of the time that it is supposed to take off, 
rather than how long it sits on the runway. And one of the 
parts of my bill also allows antitrust exemptions for airlines 
to be able to talk about scheduling.
    Now, I have a question about whether we need to give that 
exemption and I want to give it if it is necessary but why 
cannot the representative of an airline walk out to the monitor 
in an airport and see that there are 20 flights all scheduled 
at 8:15 and knowing that that cannot possibly be possible, why 
cannot they adjust their schedules without the need to sit down 
and talk about it beforehand. It is very public, these 
schedules.
    Mr. Jackson. Senator, the congestion problem that you 
mentioned is a very, very high priority of Secretary Mineta and 
the Department and we look forward to working with you and the 
Committee to address that very difficult problem.
    On the particular issue of the scheduling, the Secretary 
has said that he is looking at the question of whether some 
limited antitrust immunity might be helpful or not, but we have 
also been looking very carefully at some experience of 
techniques that did not require such a step and he is actively 
reviewing those. There have been some recent examples of 
individual airlines stepping up to the plate and trying to 
address the scheduling problems on their own accord at 
specifically congested airports.
    Senator Hutchison. Do you think monetary incentives for 
airlines to delay a flight schedule would be helpful?
    Mr. Jackson. I would like to look at that question. The 
Administration hasn't taken a position on congestion pricing at 
this juncture, but I think that the State of the conversation 
obliges us to look at every single option very carefully and I 
would look forward if confirmed to doing that with you.
    Senator Hutchison. We certainly will want to hear from you. 
The other major concern that I have relates to my State in 
particular, but also to other States as well.
    My State has really been discriminated against in gaining 
access to Heathrow Airport. I have three of the ten largest 
cities in America in Texas and not one of them can fly directly 
to Heathrow. We have been bypassed in the last bilaterals and I 
am furious about it, frankly. I think the Department of 
Transportation is to blame. I think they made a bad deal and I 
think it is absolutely ridiculous that the number of passengers 
that would like to fly directly to Heathrow but do not have 
that ability because the DOT made a bad decision.
    There are other places where I think we ought to be gaining 
additional access. Hong Kong is another destination where you 
were supposed to be going into negotiations and now you've put 
those off until June. I want to know what the status is of 
direct access to Heathrow and the bilaterals with Great Britain 
and the situation with Hong Kong.
    Mr. Jackson. Senator, on the Hong Kong issue the Secretary 
hit the pause button on those negotiations temporarily in order 
to assure himself that the Administration's position supporting 
open skies and broadest possible liberalization for our 
aviation bilaterals would be possible and would be pursued with 
aggressiveness by the Department and by the Administration.
    He has had a good conversation I understand recently last 
week with his counterpart there and it is our expectation that 
we would resume those negotiations with Hong Kong. And on the 
issue of the Heathrow, I understand your frustration. You and I 
had the opportunity to discuss this issue.
    In my previous tour of duty at the Department, this was a 
bone of contention and a problem we had not resolved. I find 
myself back here 8 years later and it is still unresolved. What 
I would tell you is that it is very much on the Secretary's 
radar screen and it is very much on my radar screen and we will 
work on that issue.
    Senator Hutchison. Well, I think at some point we have to 
renounce the bilaterals and start all over again because we are 
at a terrible disadvantage and there are other cities, I am 
sure, that should be eligible and are seeking that same kind of 
service but I think it is egregious that we do not have service 
from Dallas or Houston. Houston is now trying, and I am going 
to do something pretty drastic if we do not see some movement.
    I am saying my patience is really run out on that issue and 
I will be looking at the Hong Kong issue and I hope we can just 
go forward in this Administration with open skies rather than 
narrow bilaterals. I thank you.
    The Chairman. Senator Smith.

                STATEMENT OF HON. GORDON SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. Brenda and Michael, 
I count you both as friends and look forward to supporting you. 
I am very gratified by your appointments and know you will do a 
superb job.
    Michael, I read your testimony and I appreciate your 
comment about just the whole issue of capacity. I believe our 
country is not investing in enhanced capacity and I want to 
encourage you to come up with planning for increased capacity 
in every area, rail, shipping, roads, airports, all of that. We 
really need your Department to turn on the lights for America 
as to how big a problem we have.
    I recently became aware of just how vulnerable we are in 
terms of rail shipment of commerce and how easily we frankly 
can have interruptions that will put a lot more stress on our 
roads if we do not increase the capacity of our rails, and so I 
hope that will be a real focus for you.
    If you have any comment about that, I would like to hear 
it.
    Mr. Jackson. The gap between demand and capacity is a very 
serious problem and all the modes, as you say, need the focus 
of the Department's energies. It is a No. 1 priority for us and 
it is not a silver bullet simple issue. It means investment and 
it means doing many other things to make this work right and 
the Department is committed to working these issues very, very 
hard.
    Senator Smith. Very good, thank you.
    Brenda, I appreciate your recent help on the issue of the 
Klamath Falls farmers and the endangered species listings that 
has affected an entire region in my State and particularly the 
community of Klamath Falls.
    I would just highlight to your watchful eye the whole 
agency known as the National Marine Fisheries Service. I do not 
know of an agency in government that has had a more harmful 
effect on the human species in my State than this agency and it 
falls under your care now and it is not on my part a comment 
that we should lower environmental laws, but frankly, there is 
a way to treat people and there is a way not to and NMFS has 
become the picture of how not to treat the human species. And 
so whatever you can do to assure that our laws are enforced 
with sensitivity, greater sensitivity to the fisheries, to 
farmers, to foresters, this is badly needed in my State and 
there is not an agency in the Federal Government that is more 
unpopular, I am being generous with that word, than the 
National Marine Fisheries Service.
    So I appreciate your willingness to serve in this capacity. 
I think you'll just be a superlative in this job and I commend 
President Bush in your selection and I wish your family well.
    The Chairman. Thank you.
    Senator Dorgan.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much. I will 
be very brief. I want to say that I support both of these 
nominations. I think they are good choices and have had a 
chance to visit with both of them about a range of issues in 
both agencies and think the President has chosen well and I am 
happy to lend my support for the nomination.
    The Chairman. Thank you.
    Senator Cleland.

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Mr. Chairman, thank you very much. It is 
an honor to support these two distinguished nominees, 
especially the gentleman from Georgia, Mr. Jackson. We are glad 
to see you and Ms. Becker. Thank you for taking on this 
responsibility. Thank you Mr. Chairman.
    The Chairman. Thank you very much. I wish you every 
success. We will move your nominations as quickly as possible.
    Mr. Jackson, we will have a discussion on this issue of 
recusal. And Megan, you are required to stay for the rest of 
the hearing. Everyone else can leave.
    [Laughter.]
    Senator Burns. Mr. Chairman, I have a couple of questions 
for Mr. Jackson. I will get those in writing to you and if you 
could respond to the Committee and to me I would certainly 
appreciate that, but I plan to support both of these nominees. 
Thank you very much.
    The Chairman. Thank you.
    [Whereupon, at 9:56, the hearing was adjourned]
  

                                <greek-d>

</pre></body></html>
